Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice Programs Grant Administered by Suffolk University
Boston, Massachusetts

Report No. GR-70-04-003


January 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Juvenile Justice Grant awarded by the U.S. Department of Justice, Office of Justice Programs to the Suffolk University Juvenile Justice Center (Center). 
Between December 31, 1998, and August 14, 2002, Suffolk University was awarded a total of $5,060,685 to improve legal services for juveniles in three targeted communities and to prevent at-risk juveniles from getting into legal difficulties.
We tested the Center's accounting records to determine if reimbursement claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant agreement.
The Center has not fully complied with grant requirements.  We found deficiencies in the timeliness of the Center's financial and progress reporting, use of program income, and support or approval for expenses charged to the grant.  As a result, we identified $68,905 in funds to be put to better use, and we question an additional $25,279 (.50 percent of total grant funding) in reimbursements.1

Two of the 18 Financial Status Reports were not submitted timely.


Two of the nine progress reports were not submitted timely.


Program income was not used to reduce future drawdowns or returned to the federal government.


The Center did not provide adequate support for 9 of the 40 sampled expenditures charged to the agreement.


Salary expenses for a part-time clinical supervisor were not approved in the initial grant budget.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1978, et seq. contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings.